OFFICE OF AUDIT
REGION 2AGA
NEW YORK/ NEW JERSEY




             City of Newark, New Jersey
    Generally Obligated and Expended NSP1 Funds
      in Accordance With Regulations, but Had
       Weaknesses in Administrative Controls




2012-NY-1009                              JULY 20, 2012
                                                        Issue Date: July 20, 2012

                                                        Audit Report Number: 2012-NY-1009




TO: Annemarie Uebbing, Director, Office of Community Planning and Development,
                                         Newark, NJ, Field Office, 2FD



FROM: Edgar Moore, Regional Inspector General for Audit, New York/ New Jersey Region,
                                       2AGA


SUBJECT: The City of Newark, NJ, Generally Obligated and Expended NSP1 Funds in
Accordance With Regulations, but Had Weaknesses in Administrative Controls


     Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of the City of Newark, NJ’s administration
of its Neighborhood Stabilization Program (NSP1), funded under Title III of Division B of the
Housing and Economic Recovery Act of 2008.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
212-264-4174.
                                             July 20, 2012
                                             The City of Newark, NJ, Generally Obligated and
                                             Expended NSP1 Funds in Accordance With Regulations,
                                             but Had Weaknesses in Administrative Controls


Highlights
Audit Report 2012-NY-1009
 What We Audited and Why                      What We Found

We audited the City of Newark, NJ’s          City officials generally obligated NSP1 funds in a
administration of its Neighborhood           timely manner for eligible activities and expended
Stabilization Program (NSP1), funded         funds in accordance with HUD regulations. However,
under Title III of Division B of the         there were weaknesses in administrative controls.
Housing and Economic Recovery Act            Specifically, City officials approved ineligible and
of 2008, in support of the Office of         unsupported consultant fees, did not properly report
Inspector General’s (OIG) goal to            program income, and did not always properly maintain
improve the U.S. Department of               program records. Consequently, $60,525 expended
Housing and Urban Development’s              and $11,250 obligated for consultant fees was not
(HUD) execution of and accountability        available for eligible costs, program income of
for its fiscal responsibilities. We          $111,943 was not available for use, and HUD was not
selected the City based upon a risk          adequately informed of program income generated. In
assessment that considered that the City     addition, some of the NSP1-funded activities had
was awarded the second highest amount        experienced delays that would require city council
of funds among the Newark field              approval for extensions.
office’s six grantees and received the
highest HUD risk assessment score
(70). The objective of the audit was to
determine whether the City officials
properly obligated and expended NSP1
funds.

  What We Recommend
We recommend that HUD instruct City
officials to (1) reimburse the City’s line
of credit for the $11,250 paid and
deobligate the additional $11,250
budgeted for ineligible consultant fees,
(2) provide support for the $49,275
unsupported consultant fees paid, (3)
report and use the $111,943 in program
income not realized before drawing
down additional NSP1 funds, and (4)
provide supporting documentation for
the appraisal of an NSP1-developed
property.


                                                  2
                            TABLE OF CONTENTS


Background and Objectives                                                        4

Results of Audit
      Finding 1: City Officials Generally Obligated and Expended NSP1 Funds in   5
                 Accordance With Regulations but Had Weaknesses in
                 Administrative Controls



Scope and Methodology                                                            10

Internal Controls                                                                11


Appendixes
A.    Schedule of Questioned Costs and Funds to Be Put to Better Use             13
B.    Auditee Comments and OIG’s Evaluation                                      14




                                            3
                     BACKGROUND AND OBJECTIVES


The Neighborhood Stabilization Program (NSP1) was authorized under Division B, Title III, of
the Housing and Economic Recovery Act of 2008 and provided $3.92 billion to stabilize
communities through the purchase and redevelopment of foreclosed-upon and abandoned
residential properties. HUD’s Community and Economic Development Program division
administered the funds as Community Development Block Grants. Grants were awarded to all
States, Puerto Rico, and selected local governments on a formula basis to address the greatest
need as determined by the U.S. Department of Housing and Urban Development (HUD).
Grantees were required to obligate all of their funds within 18 months and expend the funds
within 4 years, from the date HUD signed their grant agreements.

NSP1 funds could be used to buy, rehabilitate, and resell or rent foreclosed-upon and abandoned
homes. Grantees could develop their own programs and funding priorities, but at least 25
percent of the funds were required to be used for the purchase and redevelopment of abandoned
and foreclosed-upon homes or residential properties that would be used to house individuals or
families whose incomes did not exceed 50 percent of the area median income. Any program
income realized was to have been expended before additional drawdowns of NSP1 grant funds
were requested from HUD. Grantees could use up to 10 percent of their funds, including any
program income, for administrative and planning costs.

HUD awarded the City of Newark approximately $3.4 million in NSP1 grant funds on March 18,
2009. The City obligated its funds for administrative costs and awards to six subgrantees for the
purchase and rehabilitation of 36 abandoned or foreclosed-upon homes. As of March 2012, City
officials had expended $1.7 million, or 50 percent, of the $3.4 million in NSP1 funds awarded.

The City was awarded the second highest amount among the Newark field office’s six grantees
and received the highest HUD risk assessment score (70). In addition, HUD’s monitoring found
that the City’s subrecipients’ ability to acquire abandoned and foreclosed-upon properties in the
identified areas of greatest need was an impediment to program accomplishment.

The audit objective was to determine whether City officials properly obligated and expended the
               City’s NSP1 funds for stabilization and redevelopment activities.




                                                4
                                RESULTS OF AUDIT

Finding 1: City Officials Generally Obligated and Expended NSP1
           Funds in Accordance With Regulations but Had Weaknesses
           in Administrative Controls
City officials generally obligated NSP1 funds in a timely manner for eligible activities and
expended funds in accordance with HUD regulations. However, there were weaknesses in the
City’s administrative controls. Specifically, City officials approved ineligible and unsupported
consultant fees, did not properly report program income, and did not always properly maintain
program records. These conditions occurred due to weaknesses in administrative controls and
officials’ unfamiliarity with HUD regulations. Consequently, $60,525 of unsupported and
ineligible consultant fees, and an additional $11,250 obligated, was not available for eligible
costs, program income of $111,943 was not available for use, and HUD was not adequately
informed of program income generated. In addition, some of the NSP1-funded activities had
experienced delays that would require city council approval for extensions.


 Funds Were Obligated in a
 Timely Manner

               City officials established adequate controls to ensure that all funds would be
               obligated within 18 months of their availability as required by section 2301(C)(1)
               of the Housing and Economic Recovery Act of 2008. NSP1 funds were made
               available to the City on March 18, 2009, and City officials obligated $3.2 million
               before the September 18, 2010, deadline for the acquisition and rehabilitation or
               construction of 36 NSP1-eligible properties as follows:

                          Subgrantee                  Amount          Subgrantee      Number of
                                                                      award date      properties
               Episcopal Community                   $ 760,000       July 1, 2009         9
               Development
               La Casa De Don Pedro                     760,000      July 1, 2009         10
               Development Corporation
               Greater Newark Housing                   906,165      July 1, 2009          9
               Partnership
               Housing and Neighborhood                 400,000      July 1, 2009          4
               Development Services, Inc.
               Unified Vailsburg Services               120,000      July 1, 2009          3
               Organization, Inc.
               Life Management, Inc.                    120,000      July 1, 2010          1
                             Total                   $3,066,165                           36


                                                5
            An additional $220,000 was retained for City administrative expenses.

Funds Were Generally
Expended for Eligible Costs

            As of March 2012, HUD’s Disaster Recovery Grant Reporting (DRGR) system
            reported that City officials had drawn down $1.7 million, or 50 percent, of the
            $3.4 million in NSP1 funds for costs claimed by six subgrantees or City
            administrative expenses. Documentation in support of the $1.7 million drawdown
            disclosed that the funds had generally been disbursed for eligible activity related
            to the purchase and rehabilitation of 16 abandoned or foreclosed-upon homes and
            the sale of 4 of them. However, there were some ineligible and unsupported costs
            paid due to weaknesses in controls over the budgeting and disbursement of funds.

There Were Ineligible and
Unsupported Costs

            HUD’s NSP Policy Alert, dated August 27, 2010, and updated November 16,
            2011, provides that paying developer fees for a project manager is double-dipping
            and would not be allowed. However, although City officials paid consultant fees
            of $11,250 to one subgrantee and obligated an additional $11,250 in consulting
            fees, $40,413 in developer fees was also budgeted for the same project.

            A City subgrantee paid its contractor an unsupported $49,275 in consultant fees
            related to the sale of an NSP1-developed property on September 30, 2010. The
            contract between the subgrantee and its contractor provided for a consultant fee
            based upon the services provided according to the redevelopment agreement, as
            well as an additional consultant fee. The additional consultant fee would be based
            upon the net sales price of the property to a buyer identified and counseled as a
            result of the contractor’s efforts. However, documentation provided indicated that
            the efforts required for the additional consultant fee were executed by the City’s
            Department of Economic and Housing Development and Tri-City Peoples
            Corporation, a HUD-certified housing counseling agency.

            In addition, City officials reimbursed a subgrantee for 50 percent of property’s
            acquisition costs in excess of that allowed by City policy. City policy limits the
            reimbursement of acquisition costs to 25 percent of a property’s actual cost.
            Contrary to this policy, City officials paid acquisition costs of $90,000 on October
            27, 2010, for three NSP1-eligible properties, amounting to $30,000 per property,
            and reimbursed an additional $60,000 in acquisition costs for two of the
            properties, along with additional rehabilitation expenses, on October 20, 2011.
            However, we did not classify this as an ineligible expense because HUD
            regulations do not limit the reimbursement of acquisition costs. These conditions
            existed due to weaknesses in the City’s administrative control over the budgeting
            and disbursement of funds to subrecipients.

                                             6
Program Income Was Not
Properly Reported or Expended

           City officials did not report or expend $111,943 in program income realized on
           the sale of one of its NSP1-developed properties before drawing down additional
           NSP1 funds from HUD and did not report the program income as required.
           Federal Register Notice 194, Volume 73, page 58340, dated October 6, 2008,
           provides that revenue received by a State, unit of general local government, or
           subrecipient, as defined in 24 CFR (Code of Federal Regulations) 570.500(c), that
           is directly generated from the use of Community Development Block Grants
           constitutes program income, which should be expended before grant funds are
           drawn down and expended. Program guidelines further provide that when income
           is generated by an activity that is partially assisted with Federal funds, the income
           must be prorated to reflect the percentage of Federal funds used. As shown
           below, the City should have recognized $111,943 in program income receipts.
           However, the program income amounts were not reported to HUD, nor were these
           amounts disclosed in the Disaster Recovery Grant Reporting System.

       NSP1 property    Total cost NSP1     Percentage of           Program         Prorated
                                   funds    cost paid with          income          program
                                   used     NSP1 funds              realized        income
       62 Ninth St.      $176,000 $ 85,075         48.3               $ 135,238       $ 65,320
                    th
       284 South 11 St.   160,000    79,000        49.4                  84,919         41,950
       60 Arlington St.   220,335    75,210        34.1                  13,704          4,673
              Total                                                                  $ 111,943

           City officials did not recognize or report this program income in the City’s quality
           performance report to HUD as required. Further, City officials approved the
           payment and drew down NSP1 funds of $94,225 and $42,696 on October 1 and
           December 15, 2010, respectively, for its other NSP1 projects without requiring
           that the subgrantee use program income earned of $111,943 before seeking NSP1
           funds. This noncompliance occurred because of City officials’ unfamiliarity with
           program income regulations.

Maintenance of Program
Records Was Inadequate

           City officials did not always maintain adequate records to determine that the City
           purchased properties at a discount from the properties’ current market-appraised
           value and that program income was earned. Section 2301(d)(1) of the Housing
           and Economic Recovery Act of 2008 requires that any purchase of a foreclosed-
           upon home or residential property under NSP1 be at a discount from the current
           market-appraised value, and acquisitions of foreclosure property require an
           appraisal to determine the statutory purchase discount. Further, HUD requires

                                             7
             that the appraisal be performed within 2 months of the final offer. City files
             lacked an appraisal for 1 of the 16 properties acquired with NSP1 funds, and City
             officials could not provide documentation to determine whether the property was
             foreclosed-upon or abandoned. This condition existed because of administrative
             control weaknesses.

Projects Have Experienced
Delays


             While the City appears to have the capacity to expend its NSP-1 funds, various
             projects funded with the NSP-1 funds have experienced delays. City officials
             initially executed agreements with the City’s subgrantees that provided for up to
             two six month extensions without requiring City Council approval. Five of the
             six subgrantee agreements were extended an additional six months by the City
             around June 2011, and subsequently extended again in December of the same
             year. The current extensions expire on June 30, 2012, and will require City
             Council approval to extend the projects again. An assessment of the projects’
             status prepared by City officials disclosed that 13 of the 36 projects will not be
             completed by June 30, 2012, and that 13 are estimated to have less than 25
             percent of construction completed. If the funds for these projects are not
             expended by March 18, 2013, the funds will be recaptured by HUD in compliance
             with the Housing and Economic Recovery Act of 2008.

Conclusion

             City officials generally obligated the City’s $3.4 million in NSP1 funds in a
             timely manner for eligible activities and expended $1.7 million in accordance
             with HUD regulations. However, there were weaknesses in administrative
             controls, which caused ineligible and unsupported expenditures. Thus, City
             officials’ unfamiliarity with HUD regulations resulted in improper recognition
             and use of program income. In addition, some projects had experienced delays
             requiring that actions be taken to ensure that funds would be expended in a timely
             manner with proper approval.

Recommendations

             We recommend that the Director of HUD’s Newark, NJ Office of Community
             Planning and Development instruct City officials to

             1A. Reimburse its line of credit for the $11,250 in ineligible consultant fees paid
                 and deobligate the additional consultant fees of $11,250 obligated, thus
                 ensuring that these funds can be put to better use for eligible items.




                                              8
1B. Provide justification for the unsupported $49,275 in consultant fees paid and
    if adequate support cannot be obtained, recover the costs from the
    subgrantee.

1C. Strengthen its controls over the obligation and expenditure of subgrantee
    costs to ensure that ineligible and unsupported consultant fees are no longer
    budgeted and paid.

1D. Record the unreported program income of $111,943 in the Disaster Recovery
    Grant Reporting System so that these funds can be used before requesting
    additional NSP1 fund drawdowns, thus ensuring that these funds are put to
    better use.

1E. Strengthen controls over the recognition and reporting of program income to
    ensure that it is properly reported in HUD’s Disaster Recovery Grant
    Reporting System and used as required before drawing down available NSP1
    funds.

1F. Provide appraisals or other documentation for one property lacking an
    appraisal to determine whether the properties were purchased at a discount
    from the appraised value. If program income should have been recognized,
    it should be reported and used before additional NSP1 funds are drawn
    down to ensure that funds are put to better use.
.
1G. Seek city council approval for extensions of subgrantee agreements if
    warranted and establish controls to ensure that projects will be completed in
    a timely manner to ensure the expenditure of NSP1 funds before the
    expenditure deadline to prevent recapture.




                                9
                        SCOPE AND METHODOLOGY
We performed the audit fieldwork from December 2011 through April 2012 at the City’s offices
at 920 Broad Street, Newark, NJ. The audit covered the period March 2009 to February 2012.

To accomplish the audit objectives, we performed the following steps:

          Reviewed HUD regulations and program guidance to gain an understanding of NSP1.

          Reviewed the NSP1 agreements between HUD and the City and the agreements
          between the City and its subgrantees to obtain an understanding of the size and nature
          of the City’s program.

          Documented the City’s internal controls over the administration of its NSP1 to assess
          program risks.

          Reviewed City obligations to ensure that all funds were obligated within 18 months of
          receipt as required.

          Reviewed 28 vouchers through which City officials disbursed $1.7 million in NSP1
          funds and tested the disbursements to ensure that the costs complied with program
          regulations and were for eligible expenses, such as sales costs, closing costs, and
          reasonable developer fees.

          Conducted site observations of the 36 properties being rehabilitated or constructed by
          the City to identify any discrepancies between the rehabilitation or construction status
          and that reported by City officials.

          Verified the property addresses obtained from the most recent quarterly performance
          reports in Lexis-Nexis and the New Jersey Association of County Tax Boards Web
          site to determine the acquisition costs and current ownership.

         Reviewed City records to identify any program income and ensure that it was properly
         reported. Assessment of the reliability of the data in the City’s systems was limited
         to the data sampled, which were reconciled to the City’s records.

          Reviewed City records to ensure that home buyers were qualified and received home
          buyer counseling as required.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective(s).



                                                10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                   Program operations - Policies and procedures that management has
                   implemented to reasonably ensure that a program meets its objectives.

                   Compliance with laws and regulations - Policies and procedures that
                   management has implemented to reasonably ensure that resource use is
                   consistent with laws and regulations.

                   Safeguarding resources - Policies and procedures that management has
                   implemented to reasonably ensure that resources are safeguarded against
                   waste, loss, and misuse.

                   Validity and reliability of data - Policies and procedures that management
                   has implemented to reasonably ensure that valid and reliable data are
                   obtained, maintained, and fairly disclosed in reports.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

                                                 11
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                    City officials did not ensure that program income was properly identified,
                    recorded, and expended (see finding).

                    City officials did not safeguard resources when they disbursed funds for
                    ineligible and unsupported fees (see finding).

                    City officials did not ensure the validity and reliability of data when they did
                    not maintain adequate program records (see finding).




                                              12
                                      APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation                          Unsupported      Funds to be put
                      Ineligible 1/
     number                                  2/           to better use 3/

      1A                $11,250                                   $11,250
      1B                              $49,275
      1D            ______________ ____________                  $111,943
     Total             $11,250        $49,275                    $123,193


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if HUD implements our recommendations
     to require the City to deobligate the $11,250 and to recognize program income of
     $111,943, these funds would increase the NSP1 funds available, thus ensuring that the
     funds would be put to better use.




                                             13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         14
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         15
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                         16
Ref to OIG Evaluation   Auditee Comments




Comment 4



Comment 5




Comment 6




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 7



Comment 8



Comment 9




Comment 10




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 10




                         19
                           OIG Evaluation of Auditee Comments

Comment 1     We concur with City officials that the subrecipient’s contractor meets the
              definition of a developer and in accordance with HUD’s NSP Policy Alert would
              be entitled to a developer fee. However, while City officials note that the
              consultant and developer fees are separate fees earned by both the subrecipient
              and the contractor, the documentation provided (AIA document G702) shows that
              both the consultant and developer fees were paid to the contractor. Therefore,
              unless City officials can document that both fees were not earned by the
              contractor, we maintain that the $11,250 paid and the additional $11,250 as
              consultant fees should be classified as an ineligible cost. These costs will be
              resolved during the audit resolution process with HUD.

Comment 2     City officials state that the questioned $49,275 cost is not a consultant fee, but
              rather, home improvement expenses outside the contracted scope of work which
              the homebuyer agreed to pay. To support this position, City officials provided a
              contract between the home buyer and the contractor specifying work to be done
              for not more than $50,000. However, the HUD-1 documenting the sale of the
              NSP-developed property reports the $49,275 as being paid from the seller’s
              proceeds of sale, and no documentation was provided to show these costs were
              paid from funds of the buyer. Further, the contract between the subrecipient and
              its contractor provided for a consultant fee of $49,275 for identifying a buyer,
              providing counseling, and assisting with the closing of the NSP-developed
              property. Documentation indicates that this fee was calculated by deducting
              $150,000 from the net sales price of $199,275 as stipulated in the contract.
              However, since documentation obtained during the audit disclosed that these
              services were performed by another entity, we maintain that the City should
              provide justification for the unsupported $49,275 in consultant fees paid to the
              contractor. These costs will be resolved during the audit resolution process with
              HUD.

Comment 3. We agree with the actions that City officials note they perform, but the need to
           strengthen procedures will depend upon HUD’s resolution of the questioned costs
           identified in recommendation 1A and 1B.

Comment 4     City officials state that the draft report inaccurately reflected total development
              costs and net sales prices, and therefore, the program income generated. They
              further stated that they require subrecipients to price home sales to the lesser of
              the appraised value or the total development costs minus the NSP subsidy in order
              to avoid the realization of program income, and that each property questioned was
              sold for less than its development cost. While City officials report additional
              developmental cost amounts not provided during the audit for the 62 Ninth
              Avenue and 284 South11th Street properties, they did not provide documentation
              to support the additional costs that were part of the professional fees and
              financing/related charges categories. City officials will need to provide



                                               20
              documentation to support these additional costs as part of the audit resolution
              process with HUD.

Comment 5     City officials acknowledge that the 60 Arlington Avenue property realized
              program income, and have agreed to update the DRGR to reflect the income;
              however, they calculate a lower amount due to additional claimed development
              costs that were not provided during the audit. However, since they did not
              provide documentation to support these additional costs, they will need to provide
              the documentation as part of the audit resolution process with HUD.

Comment 6     City officials’ comment is responsive to the recommendation.

Comment 7      City officials maintain that an appraisal was not required for the 933 South 19th
              Street property because the sales price was $16,798, which is below the $25,000
              threshold requiring an appraisal. However, while the purchase and sale agreement
              lists the total adjusted sales price as $16,798, the purchase price is listed as
              $29,700 and the he HUD-1 reports the purchase and sale price as $29,700. While
              City officials maintain that anticipated value can be interpreted as the actual
              purchase of the property or the actual monetary amount that was given to the
              seller, we believe that the anticipated value of the property should be viewed as
              the value that was extended by the seller, in this case $29,700, despite the actual.
              Thus, City officials’ interpretation of anticipated value may lead to the
              circumvention of the appraisal requirement of the NSP1 guidelines. Therefore, the
              OIG maintains its position that an appraisal, or suitable substitute for an appraisal
              was needed for the property acquired at 933 South 19th Street.

Comment 8     City officials maintain that a Broker’s Price Opinion meets the NSP1 requirement
              for an appraisal because it considers comparable sales and listed properties in the
              area. OIG concurs with City officials that the Broker’s Price Opinion is a suitable
              substitute for an appraisal, and has adjusted the report to reflect such.

Comment 9     Based upon discussion at the exit conference, the OIG agreed that HUD NSP1
              guidance permits a grantee to determine what constitutes a substantial change that
              would require an amendment to a grantee’s action plan. Consequently, since City
              officials had not deemed the change in assisted properties as substantial, and had
              advised that the DRGR system was updated, we removed the recommendation
              relating to strengthening controls to ensure action plans are amended when
              required.

Comment 10 As acknowledged by City officials, and disclosed in the report, the initial
           subgrantee agreements approved by the City’s municipal council included two 6-
           month extension provisions. However, as noted in the report, both of these
           extensions were executed and have since expired, and no additional extensions
           have been sought or approved by the council as required. While City officials
           maintain that they are actively monitoring the subgrantees and are confident that
           existing controls will ensure that the City will meet the disbursement deadline;

                                               21
since 13 of 36 projects have not yet been completed, we believe it is necessary
that council approval be sought to extend the subgrantee agreements. In addition,
controls should be established to ensure that the remaining NSP1 funds are
appropriately expended within the statutory deadline of March 18, 2013.




                                22
